-780
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

Supreme Court, U.S.
FILED

DEC - 1 2020
OFFICE OF THE CLERK-

JOHN JOSEPH BARRERA,
Petitioner,

vsJESSICA NEWSOME, et. al.,
Respondents.

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI
Submitted by
John Joseph Barrera, #160094
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Received
DEC 1 1 2020

Dated: November 20,2020

STATEMENT OF QUESTION PRESENTED

(I)
WHETHER OR NOT THE COURTS BELOW HELD THE PRO. SE. PRISONER
PLAINTIFF TO A HIGHER STRINGENT STANDARD OF PLEADING BY
DISMISSING HIS PRO. SE. PLEADINGS WITHOUT ALLOWING HIM AN
OPPORTUNITY TO AMEND HIS COMPLAINT TO CORRECT ANY PLEADING
DEFICIENCY UNDER FED. R. CIV. PROC. 8(a)(2), EFFECTIVELY OVERRULING
HAINES -V- KERNER, AS DECIDED BY THIS COURT MANDATING REVERSAL?

n

LIST OF PARTIES

Petitioner Party.
John Joseph Barrera, #160094
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Respondent Parties:
Jessica Newsome, LCF Food Service
c/o Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036
Sgt. Brand, Corrections Officer
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036
Margaret Ouellette, Physician Assistant
c/o Health Care Department
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

iii

DISCLOSURE OF CORPORATION AFFILIATE
AND FINANCIAL INTEREST

Petitioner states that pursuant to Supreme Court Rule 29.6, he is a named party in this
case and hereby make the follow ing statement:

[ ] That he is not a party or subsidiary or affiliated with any public owned corporation. Nor is
a public owned corporation a party to this action. Moreover, there is no public owned corporation
that would have a financial interest in the outcome of this case on certiorari review.

This corporate financial disclosure statement is submitted and made under the penalty of
perjury pursuant to Title 28 USC § 1746. FURTHER, Petitioner states not.

Dated: January 12,2021

iv

TABLE OF CONTENTS
Statement of Question Presented
List of Parties

in

Corporate Disclosure Statement

iv

Table of Contents...................

v
,vi

Table of Authority
Petition for Writ of Certiorari

1

The Opinions Below

1

Statement of Basis for Jurisdiction

2

Constitutional and Statutory Provisions Involved

2

Statement Regarding Certiorari Review..........

,3

Statement of the Case...................................

.4,5

Reasons for Granting the Writ of Certiorari ...

.6

Consideration Governing Review on Certiorari

.7

Question [Supporting Certiorari):
DID THE COURTS BELOW HOLD THE PRO. SE. PRISONER PLAINTIFF TO A
HIGHER PLEADING STANDARD BY DISMISSING HIS COMPLAINT WITHOUT
ALLOWING AN OPPORTUNITY TO AMEND HIS PLEADINGS TO CORRECT ANY
PLEADING DEFICIENCY UNDER FEDERAL RULE OF CIVIL PROCEDURE 8a(2),
EFFECTIVELY OVERRULING HAINES -V- KERNER, AS DECIDED BY THIS COURT
8
REQUIRING REVERSAL?
Summary and Conclusion.................................................

12

Declaration of Compliance under 28 USC § 1746 .................

13

Proof of Service................................................................

14

Reference to Appendix:
Appendix-A
Appendix-B
Appendix-C
Appendix-D

[Court of Appeals Opinion Denying Relief]..........
[District Court's Order Denying Reconsideration].
[District Court's Order Dismissing the Complaint]
IThe 42 USC § 1983 Complaint].......................

v

....1a to 5a
....6a to 7a
..8a to 16a
17a to 23a

TABLE OF AUTHORITY
Albrecht v United States, 273 US 1,11 (1926) ...........................

.3

Ashcroft v Iqbal, 556 US 662,678 (2009) ..................................

,3,5,7

Bell v Alt Corp v Twombly, 550 US 544, 579 (2007) ...................

5,7,10

Bradley v Mason, 833 F. Supp 2d 763 (N.D. Ohio, 2011) ............

10

Conley v Gibson, 355 US 41,47 (1957).....................................

,3,7,8

Crabe v Lappin, 452 F 3d 35,327 (5th. Cir. 2007)........................

12

Denton v Hemendez, 504 US 25,33 (1982) ..............................

,5,10,12

Egerer v Woodland Reality, Inc., 556 F 3d 415,426 (6th. Cir. 2009)

,9

Erickson v Pardus, 551 US 89,94; 127 S Ct 2197 (2007) ..........

.3

Farmer v Brennan, 551 US 825,844; 114 S Ct 1970 (1994) ........

,6

Haines vKemer, 404 US 519 (1972) .........................................

passim

Helling v McKinney, 509 US 25, 33 (1993) ................................

.7

Hill v Lappin, 630 F 3d 468,471 (6th. Cir. 2010) .........................

11

Johnson v City of Shelby, 514 US 10; 135 S Ct 346 (2014) .........

,5

Jones v Bock, 127 S a 910,914 (2006) ...................................

10

Lomax v Ortega-Marquez, 140 S Ct 1721 (2020)........................

,7

McGore v Wriggleworth, 114 F 3d 601,612 (6th. Cir. 1997)..........

12

Pasley v Conerly, 345 Fed Appx' 981,986 (6th. Cir 2009) ..........

11

Powers v Snyder, 484 F 3d 929 (7th. Cir. 2007) ........................

11

Scheurer v Rhodes, 416 US 232,236 (1974) ...........................

,3,10

Siggers El v Campbell, 652 F 3d 681,691 (6th. Cir. 2011) ..........

,8

Thomas v Eby, 481 F 3d 434 (6th. Cir. 2007) ............................

.8,9

US Const. Amend. VIII............................................................

2,7

US Const. Amend. XIV..........................................................

2,7

Fed. R. Civ. Proc 8a(2) ..................................................

passim

VI

No.
IN THE
SUPREME COURT OF THE UNITED STATES
*** October Term 2020 ***

JOHN JOSEPH BARRERA,
Petitioner,
-VS-.

JESSICA NEWSOME, et. al.,
Respondents.
PETITION FOR WRIT OF CERTIORARI
Petitioner, John Joseph Barrera, acting Pro. Se., hereby submits his Petition for Writ of
Certiorari to the US Court of Appeals for the Sixth Circuit, to review the decision from the US
District Court dismissing his Title 42 USC § 1983 Complaint. Petitioner states as follows:

The Oninions Below
The opinions and orders below are listed by the following orders. The Opinion and Order
entered on September 14, 2020, by the US Court of Appeals for the Sixth Circuit under citation,
Barrera v Newsome, et al., (6th. Circuit number 20-1270) affirming the US District Court's
dismissal is an unpublished opinion which can be found in the Appendix under (Appendix-A, pp 1a
to 5a). The opinion and order from the United States District Court denying the motion for
reconsideration on February 21, 2020, is an unpublished opinion in the federal supplements, and

1

can be found in (Appendix-B, pp 6a to 7a).
The opinion of the US District Court issued on January 14, 2020, dismissing the pro. se. 42
USC § 1983 Complaint, is an unpublished opinion and can be found in Appendix-C, pp 8a to 16a.
A copy of the pro. se. civil rights complaint is attached and can be found in Appendix-D, pp 17a to
23a. This writ for certiorari review is timely resubmitted.

Statement of Basis for Jurisdiction
This is a 42 USC § 1983 pro. se. civil rights complaint filed by a state prisoner. This Court
has jurisdiction pursuant to 28 USC § 1251. Further jurisdiction is invoked under the supervisory
authority vested in US Const. Art III, and US Const. Amends. VIII and XIV. Petitioner also
invokes Supreme Court Rule 10(c). This Petition for Writ of Certiorari is timely submitted pursuant
to Supreme Court Rule 13.1. Moreover, the Courts below have decided a an important question
of federal law that has not been, but should be, settled by this Court, and the decisions below
conflicts with this Court’s ruling in Haines v Kemer, 405 US 519 (1972). The decision from the
Sixth Circuit was issued on September 14,2020.

Constitutional and Statutory Provisions involved
The issue presented for certiorari in this Court is in direct violations of the constitutional
amendments, and the statutory provisions listed infra:
1). US Const. Amend VIII (1791)
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishment inflicted..
2). US Const Amend. XIV, § 1 (1868)
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State wherein they reside. No state shall make
or enforce and law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.
3). Michigan Const. 1963 Art 1, §§ 16. (Cruel or Unusual Punishment Provision)
4). Title 42 USC §1983
5). Title 42 USC §1997e(a)
6). State Law, MCL § 19.141; MCL § 750.84 (Assault)
2

Statemont Regarding Certiorari Review
Petitioner seeks a writ of certiorari in this Court to decide a claim of first impression. That
is, there is no rulings from this Court on a claim where the US District Court held a pro. se.
prisoner to a higher pleading standard and effectively overruling this Court's decision in Haines v
Kemer, allowing a less stringent pleading standard than those drafted by a lawyer, and dismissing
the civil rights complaint alleging a failure to protect from harm by and from another prisoner.
The case with similar points is the decision announced in Con/ey v Gibson, 355 US 41,47
(1957), which this Court referenced in Ascroft v Iqbal, 566 US 662,678 (2009), where the courts
below completely ignored. Petitioner Barrera asks this Court to make a judicial ruling on his claim
and grant certiorari relief for courts below to be fully instructed.
This Court has determined that a claim can be properly addressed before the Court on
proper citations to governing law. Albrecht v United States, 273 US 1, 11 (1926). Therefore,
Petitioner urges this Court to address the right to present his civil complaint on a less stringent
pleading standard than those drafted by a lawyer. Accord. Haines v Kemer, 404 US, at 520-521.
This Court is asked to hear this petition because the claim has never been addressed
where a pro. se. prisoner's complaint was dismissed without the required sen/ice of process on
Defendants, or before he was allowed to amend his pleadings to comply with any deficiency under
Fed. R. Civ. Proc. 8a(2)(B)(i). The decisions below are contrary to this Court's rulings on the less
stringent standard for pro. se. 1983 litigants and should be reversed and remanded for further
proceedings consistent with the ruling in Scheurer v Rhodes, 416 US 232, 236 (1994).
Additionally, this Court has held that: "Generally, a pro. se. complaint should be held to less
stringent standards than those formal pleadings drafted by lawyers." £f 404 US, at 520. Ibid.
This Court is asked to invoke its supervisory authority and hear the claim asserted.
Erickson v Pardus, 551 US 89, 94; 127 S Ct 2197 (2007) - [Pro. Se. complaints are entitled to
liberal construction]. Because the complaint was dismissed at the screening stages under 28
USC § 1915A(b); 28 USC § 1915(e)(2)(B)(i), this case is ripe for review on certiorari pursuant to
Supreme Court's Rule 10(c).
3

Statement of the Case
This case involves a state prisoner in the State of Michigan's penal system who was
assaulted by another prisoner when he went to the facility's chow hall. A prisoner on the chow hall
serving lines began to yell obscenities and threatening behavior at Petitioner when he was
receiving his tray of food. Respondent, Newsome, was the food service supervisor in charge of
the serving lines and when she heard the very loud commotion, she ignored the circumstances
and failed to order the yelling prisoner to stop his yelling and to just serve the food from the serving
lines. The yelling and threats caused all other prisoners to stop what they were doing and witness
the commotion. Respondent Newsome did nothing to abate or defuse the situation with the food
service prisoner employee.
Respondent, Sgt. Brand, was the ranking security supervisor assigned to the chow hall
when the incident occurred. He stop what he was doing when he heard the loud commotion, and
observed the yelling prisoner make threats to Petitioner. He did nothing to abate or defuse the
circumstances, nor did he cite the serving prisoner with a misconduct report for creating a
disturbance in the chow hall area which is considered a 'critical area, because prisoners from all
housing units have to eat there, three times daily.
Petitioner received his food tray, said nothing to the yelling/threatening prisoner, and
proceeded to a table where he sat down and ate his food. After he finished, he was in the process
of leaving the chow hall with his back to the serving line area when he was strucked in the head
and fell to the floor where he laid for approximately 90 seconds. After he got up, Sgt. Brand came
over to him and had him escorted to the health care area because there was a know on the side of
Petitioner's head. While at health care, Respondent Ouellette, a physician assistant, looked him
over, and told him she would not spend tax-payers' money by sending him to an outside facility for
an examination. She sent him back to his housing unit without any treatment for a head injury.
Petitioner filed his administrative grievances, and after full and complete exhaustion of any
administrative remedy, he submitted his pro. se. Title 42 USC § 1983, civil rights complaint
alleging a failure to protect him from harm as to Respondends, Newsome and Brand, and

deliberate indifference to his medical needs against Ouellette. During the initial screening process,
the US District Court dismissed the complaint without notice of the pleading deficiency pursuant to
Title 28 USC § 1915(e)(2): 1915A(b); 42 USC § 1997(e)(c), for failure to state a claim for relief.
(Appendix-B).
Petitioner sought reconsideration on the dismissal without notice of the alleged pleading
deficiency, and his motion was denied by the district court. There were no services of the
complaint and jury demand rendered on the Respondents-Defendants in this action.
Petitioner appealed the decisions from the US District Court to the United States Court of
Appeals for the Sixth Circuit in Cincinnati, Ohio, which upheld the dismissal on the
erroneous/absurd notion that Petitioner failed to submit an amended complaint to correct the
pleading deficiency, after the district court had dismissed the action. (Appendix-A).
Petitioner seeks certiorari relief in this Court on the 'vovel issue' of whether or not the courts
below erred reversibly by not allowing Petitioner an opportunity to file an amended complaint to
couuect any pleading deficiencies by a pro. se. litigant under this Court's former ruling in Haines v
Kemer, 404 US 519 (1972), under the less strigent standard of pleading drafted by a pro. se.
prisoner-plaintiff. This case centers around the abuse of discretion by the courts below where the
courts allowed dismissal without notice of the Fed. R. Civ. P. pleading deficiency under Rule
8a(2), which provides that a short and plain statement of the claim showing the pleader is entitled
to relief. Accord. Johnson v City of Shelby, 514 US 10; 135 S Ct 346 (2014). Petitioner believes
he met those standards and he is entitled to relief on certiorari, under this Court's ruling in Conley v
Gibson, 355 US, at 47; Bell Atll Corp v Twombly, 550 US, at 570; Ashcroft v Iqbal, 566 US, at
679. See argument infra:

S:

Reasons for Granting the Writ of Certiorari
Petitioner urges this Court to grant his petition for writ of certiorari and clarify that a claim of
failure to protect him from harm by another prisoner under Defendants' supervision, adequately
stated a claim for relief prohibiting dismissal at the screening stages of the process. Accord.
Conley v Gibson, supra. The focus of certiorari inquiry is - does rulings from this Court bind all
inferior courts where the Court has not overruled a decision where pro. se. prisoner plaintiffs are
held to a lesser pleading standard, and allows him an opportunity to amend those pleadings if the
district court finds a pleading deficiency under Fed. Rule Civ. Proc. 15a?
Petitioner asserted a significant inquiry as to whether or not his clam give rise to the grant
of relief under either the constitutional safeguards of the equal protection of the law under the
Fourteenth Amendment, or the relief afforded by this Court's ruling in Haines v Kemer, supra. He
ask this Court to grant certiorari to clarify, once and for all - that when a prisoner plaintiff has
pleaded facts which would place the Defendants on notice of what the claim is all about, is he
entitled to further discovery proceedings before his case is dismissed at the initial review stages.
See Appendix-D (The Complaint). Especially, where he has to pay $400.00.
Citing a fortiori for granting certiorari in this particular case, this Court should grant relief
and correct the errors of the courts below, or pronounce a decision where litigants have been
denied their constitutional right to present their claim pro. se., which would be a constitutional
violation curable by remanding the case for further review on the constitutional claim asserted as
opposed to the procedural failure of the pro. se. litigant under Haines v Kemer, 404 US, at 520.
Petitioner asserts that certiorari should be granted to assure that he has not been the victim
of the denial of the equal protection of the law due to his prisoner pro. se. status litigant. This Court
is called upon to correct the violations that have occurred below in this case. US Const. Amends.
VIII and XIV. Further that certiorari should be granted to announce a new, updated ruling on the
standards which will be accepted by a pro. se. prisoner plaintiff, who has alleged he was assaulted
by another prisoner and the Defendants failed to protect him while under their supervision and
control. Accord. Farmer v Brennan, 511 US 825,844; 114 S Ct 1970 (1994).

6

Consideration Governing Review on Certiorari:
"(a), a United States Court of appeals has entered a decision in conflict with the decision of
another United States court of appeals on the same important matter; has decided an
important federal question in a way that conflicts with a decision by a state court of last
resort; or has so far departed from the accepted and unusual course of judicial proceedings,
or sanctioned such a departure by a lower court, as to call for exercise of this Court’s
supervisory power.” Id***

Because the Sixth Circuit relied on the erroneous notion that because Petitioner did not file
an amended complaint after his case was dismissed at the screening process stage, that
decision was clearly a violation of established law as determined by this Court mandating
certiorari review under Denton v Hernandez, 504 US 25,33 (1992), and it should be reversed.
Petitioner is entitled to relief in this case, and certiorari should be granted on the inquiry on
his claim of defendants' failure to protect him from harm when they observed the threatening
verbal yelling and failed to take control to defuse the circumstances in the chow hall prior to the
assault. Accord. Helling v McKinney, 509 US 25,33 (1993).
Petitioner Barrera asserts that he has satisfied in the inquiry in this Court's ruling in Lomax
v Ortez-Marquez, 140 S Ct 1721, where the situation was: "the district court might abuse its
discretion, if factual allegations can be remedied through more specific pleadings." CL 140 S Ct,
at 1726. Petitioner urges this Court to revisit the dissent by Justice Ginsberg, in Bell At! Corp v
Trombly, 550 US 544, at 597, where she asserts that: "when a complaint adequately states a
claim, it may not be dismissed.. Her dissent is persuasive for purposes of this certiorari petition.
On this well written principle of law, Petitioner is entitled to have his writ of certiorari heard
on the merits notwithstanding the erroneous rulings from the courts below.

Cf. US Const.

Amends. VIII and XIV. The decisions below would imply that Haines v Kemer, has been
overruled by this Court's decision in both Bell Atl. Corp. v Twombly, 550 US 544, at 570, or in
Ashcroft v Iqbal, 556 US, at 678, addressing a 42 USC 1983 complaint. Petitioner asserts that
such is not the case and as a pro. se. litigant, he should be entitled to a notice of any pleading
deficiency before his complaint is dismissed under 28 USC § 1915A(b)(1); 1915(e)(2)(B)(i),
■7.L

QUESTION
[Supporting Certiorari]
DID THE COURTS BELOW HOLD THE PRO. SE. PRISONER PLAINTIFF TO A
HIGHER PLEADING STANDARD BY DISMISSING HIS COMPLAINT WITHOUT
ALLOWING AN ORRPOTUNITY TO AMEND HIS PLEADINGS TO CORRECT
ANY PLEADING DEFICIENCY UNDER FEDERAL RULE OF CIVIL PROCEDURE
8a(2), EFFECTIVELY OVERRULING HAINES -V- KERNER, AS DECIDED BY
THIS COURT REQUIRING REVERSAL?
The Court of Appeals for the Sixth Circuit, has previously ruled that where a district court
dismisses a 42 USC § 1983 complaint under Title 28 USC § 1915(e)(2), 28 USC § 1915A(b), the
review process and standard is de novo. Accord. Thomas v Eby, 481 F 3d 434 (6th. Cir. 2007).
That standard was apparently overlooked in thi scase. Although this Court has yet to address
such a claim in a pro. se. prisoner plaintiffs case, Petitioner urges the Court to adhere to that
standard and review his petition for writ of certiorari under the umbrella of Haines v Kemer, supra.
Additionally, this Court has said that a complaint should not be dismissed for failure to state a
claim unless it is beyond doubt that relief is unavailable. Conley v Gibson, 355 US, at 47.
Consequently, Petitioner asks this Court to grant him certiorari relief and remand the case back to
the US District Court so that the case can be reinstated and Respondents served with a copy of
the complaint against them so that they may be held accountable for their failure to act.
Furthermore, courts below reviews a motion for summary judgment under Fed. Rule of Civ
Proc. 56 under the de novo standard. The Sixth Circuit has so ruled where a grant of summary
judgment has been rendered by a district court. Cf. Siggers El v Campbell, 652 F 3d 681,691 (6th.
Cir. 2011). In Siggers El, a prisoner, pro. se. civil rights litigation involving a Michigan Prisoner, the
Court opined:
... We review de novo a district court's grant of summary judgment. Spencer v Bouchard,
449 F 3d 721, 727 (6th. Cir. 2006). Summary judgment is appropriate where there is no
genuine issue as to any material fact. Fed. Rule Civ. Proc. 56(c). This Court must
construe the evidence and dwar all reasonable inferences in favor of the nonmoving party.
Hawkins v Anheuser-Busch, Inc., 517 F 3d 321,332 (6th. Cir. 2008).
Although this case was not a summary judgment proceeding, it is noteworthy that the
review on appeal should have been under the de novo inquiry and Haines v Kemer, supra.
.'8'

Petitioner urges this Court to review his claim de novo as the district court dismissed his
action under Title 28 USC § 1915(A)(b)(1); 1915 (e)(2)(B)(1). Thus, it erred reversibly by not
allowing him an opportunity to amend, or to have conducted discovery. Accordingly, the
Courts below "abused it judicial discretion." Accord. Egerer v Woodland Reality, Inc., 556 F 3d
415,426 (6th. Cir. 2009). In Egerer, the Court opined:
'Typically, when the parties have no opportunity for discovery, denying the Rule 56(f)
motion and ruling on a summary judgment motion is likely to be an abuse of
discretion." Centra, 538 F 3d at 420 [Centra, Inc., v Estrin, 538 F 3d 402, 420 (6th.
Cir. 2008)].

Petitioner's Legal Posture
Petitioner's claims were dismissed before any service of process upon the Defendants
pursuant to 28 USC § 1915A. The Court failed to acknowledge that an amended complaint could
have served the basis of the dismissal under Rule 8a, had he been allowed to amend. The Court
simply dismissed the action on the ruse the complaint failed to state a claim. This is contrary to
clearly established case law authority from the Appellate Courts.
The US Court of Appeals for the Sixth Circuit in Thomas v Eby, 481 F 3d 434 (6th. Cir.
2007), made clear the de novo standard of review should be applied to a Pro. Se litigants
complaint:
"Dismissal of a complaint for the failure to state a claim on which relief may be granted
is appropriate only if it appears beyond doubt that a Plaintiff can prove no set of facts
in support of his claim that would entitle him to relief." See Brown v Borgery, 207 F 3d
863, 866 (6th. Cir. 2000). We must construe the complaint in the light most favorable
to the Plaintiff [and] accept all well pleaded factual allegations as true. Trzebuckowski
v City of Cleveland, 319 F 3d 855 (6th. Cir. 2003). ... Further, we held pleadings filed
by a pro. se litigant to less stringent standards than formal pleadings drafted by an
attorney, Haines v Kemer, 404 US 519,520 (1992), and may not uphold the dismissal
of such a pleading simply because we find the Plaintiff allegations unlikely. Denton v
Hernandez, 504 US 25, 33; 112 S Ct 1728; 118 L Ed 2d 340 (1992). cf. 4821 F3d, at
437 Id.
The Court went on the hold that while it may be unlikely that Thomas could prove such
facts, the district court cannot dismiss a pro. se. prisoner pleading merely because the court

9 «•

finds the plaintiff's allegations unlikely, cf. Denton, 504 US, at 33. id The dismissal in this case
seemingly overruled long standing principles of law holding pro. se. litigants to a less stringent
standard than those drafted by a lawyer under Haines v Kemer, supra. Petitioner believes he
satisfied the pleading standard under Fed. R. Civ. Proc. 8a(2) by setting forth a short ah dpiain
statement of his claims showing he was entitled to relief. Accord. Bell Atl Corp v Twombly, 550
US, at 570. Thus, the district court held Petitioner to a higher pleading standard as a pro. se.
litigant in violation of this Court former rulings on the matter. Acheurer v Rhodes, 416 US 232,236
(1974), requiring relief.
Here, sub judice, this is exactly what this Court did in dismissing the case under 28 USC §
1915A.

The Court relied on the case of Bell Atlantic Corp v Twombly, 550 US 544; 127 S Ct

1955; 167 L Ed 2d 929 (2007), which was a liability case under § 1 of the Sherman Act, 15 USC
§ 1. There Justices Stevens and Gensburg, dissented and stated:
"Dismissal should be granted very sparingly, citing to Hospital Building Co v Trustee
of Rex Hospital, 425 US 738, 746; 96 S a 1848; 48 L Ed 2d 339 (1976). In this vein,
this Court erred when abruptly dismissing Plaintiff pro. se. complaint without the
benefit of allowing him to amend his complaint to comply with the deficiency the court
felt was inadequate.” IdAs previously stated in Jones v Bock, 127 SCt 910,914 (2006), this Court pointed out that
for prisoner cases, the Court must not throw out the claim before an adequate opportunity to
consider their merit. The Court opined:
"Ensuring that claims are not thrown out before an adequate opportunity to consider
their merit is essential to that guarantee, that is, the guarantee our legal system
remains committed that prisoners claims for illegal conduct by their custodians are
fairly handled according to law." Id.

In this case, the District Court dismissed the complaint without allowing service upon the
Defendants, or discovery to allow Barrera to support his complaint with sufficient evidence to
bolster his claims. This was indeed a violation of fundamental fairness for a prisoner pro. se.
plaintiff.

In Bradley v Mason, 833 Fed Supp 2d 763 (N.D. Ohio, 2011), a case involving dismissal
10 •

of a complaint for failure to state a claim, the Court explained that:
"The factual allegations in the complaint must be enough to raise a right to relief above
the speculative level on the assumption that all the allegations in the complaint are true
(even if doubtful in fact), cf. Bell Atl Corp, 550 US at 555; 127 S Ct 1955. Plaintiff is
not required to include detailed factual allegations, but must provide more than "an
unadorned, the Defendant unlawfully harmed me accusation, cf. Iqbal, 129 S Ct at
1949. In reviewing a complaint under this standard, the Court must construe the
pleadings in the light most favorable to the Plaintiff." Bibbo v Dean Witter Reyndds,
Inc., 151 F 3d 559,561 (6th. Cir. 1998), id at 756.

Petitioner asserts that at a minimum, as a 1983 pro. se. Plaintiff, he should have been
allowed to convincing demonstrate that his complaint asserted sufficient facts to avoid summary
dismissal by allowing him an opportunity to amend, or for discover materials to support his claims
under a reading of inartfully pleaded complaint of a pro. se. prisoner plaintiff. Pasley v Conerly,
345 Fed. Appx 981, 986 (6th. Cir. 2009). See too Hill v Lappin, 630 F 3d 468, at 471 (6th. Cir.
2010). Under this approach, the district court erred, reversibly, when dismissing his action.
Petitioner urges this Court to clarify for all courts below that when faced with a prisoner
pro. se. litigant, and when ruling on a 1983 inartfully drafted civil rights complaint under 42 USC §
1983, courts must be fully aware of the decision in Haines v Kemer, and apply the less stringent
pleading standard to the complaint.

Indeed, in Powers v Snyder, 484 F 3d 929 (7th. Cir. 2007),

the Court of Appeals opined:
"If it was impossible for the Judge to determine from the complaint exactly what the
claims were, the Judge should have directed Plaintiff to explain his claims in greater
detail." cf. Pratt v Tarr, 464 F 3d 730, 733 (7th. Cir. 2006); Alston v Parker, 363 F 3d
229,234 (3d Cir. 2004). id, 484 F 3d, at 933.

Therefore, this Court is urged to overrule the courts below and remand the case for
reinstating the complaint and allow Petitioner an opportunity to amend his complaint to set forth
sufficient facts to state a claim. Accord. 42 USC § 1983, Rule 8a. Furthermore, this Court has
yet to overrule its decision in Hiaines v Kemer, supra.

It-

Summary and Conclusion
WHEREFORE, Petitioner asks this Honorable Court to grant his writ of certiorari and
remand the case back to the US District Court for the Western District of Michigan to allow him an
opportunity to submit an amended complaint under Federal Rule Civil Procedure 8(a)(2), to cure
any pleading insufficiency, regardless of the court’s posture that the allegations were unlikely, cf
Denton v Hernandez, 504 US 25,33; 112 S Ct 1728; 118 L Ed 2d 340 (1992). See too, Jacob v
West Fellcian Sheriff Department, 228 F 3d 388, 398 (5th. Cir. 2000); McGore v Wriggleworth, 114
F 3d 601, 612 (6th. Cir. 1997). Petitioner should have been allowed to amend his complaint
before the Court acted hastily in dismissing the action. _cf. Carbe v Lappin, 452 F 3d 325,327 (5th.
Cir. 2007).
Respectfully submitted,

john^pSephDarrera, #160094
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Dated: November 20,2020

/

12

